PROOF OF SERVICE

I, Michael Adefemi Adeyemo, hereinafter the "Petitioner", do swear
or declare that on this date April 8,2021 and as required by the
Supreme Court's Rule 29. A copy'of the enclosed "Petition for writ
of certiorari" and "Motion-For leave to proceed in Forma Pauperis".
Were served on the Solicitor General Of the United States, at Room
5614, Department of Justice, 950 Pennsylvania Ave. N.W Washington,
D.C 20530, via United States First-Class postage service. By depositing
such copies in the "prison mail box" of the Federal Correction
Institution, II, Oakdale Louisiana, on April 8, 2021, according to
the Supreme Court's "mail-box rule" of Houston v. Lack, and under
the penalty of perjury 28 U.S.C. ยง 1746.

Dated: April 8, 2021
Submitted,
Michael Adefemi Adeyemo
REG. NO. 10621059
FCI Oakdale II
P.0. Box 5010
Oakdale, LA 71463
CERTIFICATE OF COMPLIANCE
As required by the Supreme Court, I certify that the Petition
for Writ of Certiorari is in compliance with the Supreme Court's word
limit Rule 33.1(d). This declaration is made under the Penalty of1
Perjury 28 U.S.C ยง 1746.

Dated: April 8, 2021.

Submitted,
/V-ij

Michael Adefemi Adeyemo

